          EVALUATION REPORT


                     2009 NRC Safety Culture and
                           Climate Survey

                 OIG-09-A-18        September 30, 2009




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                            UNITED STATES
                    NUCLEAR REGULATORY COMMISSION
                            WASHINGTON, D.C. 20555-0001




OFFICE OF THE
INSPECTOR GENERAL
                                         September 30, 2009




MEMORANDUM TO:            R. William Borchardt
                          Executive Director for Operations

                          J.E. Dyer
                          Chief Financial Officer



FROM:                     Stephen D. Dingbaum /RA/
                          Assistant Inspector General for Audits


SUBJECT:                  2009 NRC SAFETY CULTURE AND CLIMATE
                          SURVEY (OIG-09-A-18)


The attached report presents the results of the 2009 NRC Safety Culture and
Climate Survey. Survey results were presented during briefings to the Chairman,
Commissioners, and agency senior managers as well as to all employees on
September 30, 2009.

We appreciate the courtesies and cooperation extended to us by members of
your staff during the survey. If you have any questions or comments about this
report, please feel free to contact me at 301-415-5915, or Steven Zane, Team
Leader, at 301-415-5912.

Attachment: As stated
Electronic Distribution

Edwin M. Hackett, Executive Director, Advisory Committee on Reactor
 Safeguards
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Stephen G. Burns, General Counsel
Brooke D. Poole, Jr., Director, Office of Commission Appellate Adjudication
James E. Dyer, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
R. William Borchardt, Executive Director for Operations
Bruce S. Mallett, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Waste, Research,
 State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director for Corporate Management
 and Chief Information Officer, OEDO
Vonna L. Ordaz, Assistant for Operations, OEDO
Kathryn O. Greene, Director, Office of Administration
Patrick D. Howard, Director, Computer Security Officer
Cynthia A. Carpenter, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
  and Environmental Management Programs
Guy P. Caputo, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Michael F. Weber, Director, Office of Nuclear Material Safety and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
Luis A. Reyes, Regional Administrator, Region II
Mark A. Satorius, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
                                          Office of the Inspector General
                                      NRC Safety Culture and Climate Survey
                                               Executive Summary


                                                 September 2009




                                              Prepared by Towers Perrin-ISR
                                                 303 East Ohio, Ste. 2100
                                                  Chicago, Illinois 60611
                                                  www.towersperrin.com




                ©2008 Towers Perrin
© 2009 Towers Perrin-ISR
                                                                                OIG NRC Safety Culture and Climate Survey – Executive Summary



Table of Contents
ABBREVIATIONS AND ACRONYMS.................................................................................................... 3

PURPOSE OF SURVEY AND BACKGROUND ....................................................................................... 5

SURVEY DESIGN ............................................................................................................................. 6

SURVEY RESULTS IN BRIEF............................................................................................................. 7
       Survey Administration Summary .......................................................................................... 7
       External Benchmark Summary ............................................................................................. 7
       Historical Comparison Summary .......................................................................................... 7
       Internal Comparison Summary ............................................................................................. 8
       Survey Results Summary ..................................................................................................... 9



INTERVIEW FINDINGS .................................................................................................................... 10
       Agency’s Primary Mission and Objectives.......................................................................... 10
       Challenges to Agency’s Future Success ............................................................................ 11
       NRC Image ......................................................................................................................... 11
       Quality Focus...................................................................................................................... 11
       Workload............................................................................................................................. 12
       Empowerment..................................................................................................................... 12
       Diversity and Inclusion........................................................................................................ 12
       Performance Management (e.g., Review Process) ............................................................ 12
       Retirement of Staff and Recruitment of Individuals ............................................................ 12
       Knowledge Transfer............................................................................................................ 13
       Career Development and Training...................................................................................... 13
       Career Advancement.......................................................................................................... 13
       Budget (e.g., CR)................................................................................................................ 14
       Communication................................................................................................................... 14
       Management....................................................................................................................... 14
       IT Support ........................................................................................................................... 14
       Conclusion of Qualitative Interview Results........................................................................ 15
                                                                               OIG NRC Safety Culture and Climate Survey – Executive Summary


SURVEY DEVELOPMENT / PRETEST ............................................................................................... 16
       Survey Categories .............................................................................................................. 16

SURVEY ADMINISTRATION ............................................................................................................. 19

OVERALL CATEGORY SCORES ...................................................................................................... 20

COMPARISON OF NRC WITH THE U.S. NATIONAL NORM ................................................................ 21

COMPARISON OF NRC WITH U.S. RESEARCH AND DEVELOPMENT NORM ...................................... 23

COMPARISON OF NRC WITH U.S. HIGH PERFORMANCE NORM ...................................................... 24

COMPARISON OF NRC 2009 RESULTS WITH NRC 2005 RESULTS ................................................. 25

COMPARISON OF NRC 2009 RESULTS WITH NRC 2002 RESULTS ................................................. 26

COMPARISON OF NRC 2009 RESULTS WITH NRC 1998 RESULTS ................................................. 27

INTERNAL COMPARISONS ............................................................................................................. 28
       Office Comparisons ............................................................................................................ 29
       Office Historical Comparisons ............................................................................................ 32
       Grade Level Comparisons .................................................................................................. 35
       Job Category Comparisons ................................................................................................ 36
       Job Function Comparisons ................................................................................................. 37
       Length of Service Comparisons.......................................................................................... 38
       Senior Resident Inspectors Versus Resident Inspectors.................................................... 39

KEY DRIVER ANALYSIS ................................................................................................................. 40

CONCLUSION ................................................................................................................................ 47
                                                        OIG NRC Safety Culture and Climate Survey – Executive Summary




ABBREVIATIONS AND ACRONYMS
 The following table includes a list of abbreviations and acronyms in this report.

 Acronym                   Full Name
 ACRS                      Advisory Committee on Reactor Safeguards
 ADM                       Office of Administration
 ASLBP                     Atomic Safety and Licensing Board Panel
 CR                        Continuing Resolution
 Dev                       Development
 Diff                      Difference
 DPO                       Differing Professional Opinion Program
 EDO                       Executive Director for Operations
 GG                        General Grade
                           Office of Human Resources/Office of Small Business and Civil
 HR/SBCR/CSU
                           Rights/ Central Support Unit
 Fav.                      Favorable
                           Office of Federal and State Materials and Environmental Management
 FSME
                           Programs
 ISR                       International Survey Research
 IT                        Information Technology
 N                         N-size; number of respondents
                           Not Available or Not Applicable; not able to compare the item or
 N/A
                           category to the norm or internal comparison
 NMSS                      Office of Nuclear Material Safety and Safeguards
 NRC                       Nuclear Regulatory Commission
 NRO                       Office of New Reactors
 NRR                       Office of Nuclear Reactor Regulation
 NSIR                      Office of Nuclear Security and Incident Response
 OCA                       Office of Congressional Affairs
 OCAA                      Office of Commission Appellate Adjudication
 OCFO                      Office of the Chief Financial Officer
 OGC                       Office of the General Counsel
 OEDO                      Office of the Executive Director for Operations
 OE                        Office of Enforcement
 OI                        Office of Investigations
 OIG                       Office of the Inspector General
 OIP                       Office of International Programs
 OIS                       Office of Information Services
 OPA                       Office of Public Affairs
 PDC                       Professional Development Center located in Bethesda, Maryland
 Perf.                     Performance
 RES                       Office of Nuclear Regulatory Research
                                               OIG NRC Safety Culture and Climate Survey – Executive Summary


Acronym             Full Name
SECY                Office of the Secretary of the Commission
SES/Executive SVC   Senior Executive Service/Executive Level Service
Towers Perrin-ISR   Towers Perrin – International Survey Research
U.S.                United States
U.S. R&D            United States Research and Development Norm
YR or YRS           Year or Years
                                                        OIG NRC Safety Culture and Climate Survey – Executive Summary



PURPOSE OF SURVEY AND BACKGROUND

 For over 10 years, International Survey Research (ISR) has been working with the NRC to assess
 their safety culture and climate as well as other aspects of employee experience such as
 engagement. ISR conducted NRC’s survey in 1998, 2002, and 2005. In 2007, Towers Perrin
 acquired ISR to form Towers Perrin-ISR. The Nuclear Regulatory Commission (NRC), Office of
 the Inspector General (OIG) engaged Towers Perrin-ISR to conduct the 2009 Safety Culture and
 Climate Survey of all agency employees.

 The 2009 Safety Culture and Climate Survey study consisted of four distinct areas: a review of
 the existing research on safety culture and climate; evaluation of the 1998, 2002 and 2005 Safety
 Culture and Climate Survey results; a qualitative design phase where a random sample of NRC
 employees and managers were interviewed; and a quantitative component consisting of a survey
 administered to all NRC employees. NRC in conjunction with Towers Perrin-ISR defined Safety
 Culture and Climate:

       Safety Culture [as it relates to the agency] refers to the complex sum [or whole] of the
        mission, characteristics, and policies of an organization, and the thoughts and actions of
        its individual members, which establish and support nuclear safety and security as
        overriding priorities.

       Climate refers to the current work environment of the agency. Climate is like a snapshot
        in time and can affect culture.

 A better understanding of NRC’s safety culture and climate will facilitate identification of
 agency strengths and opportunities for improvement. Agency program and support offices can
 use this information to develop action plans, as warranted. In addition, the OIG plans to use the
 survey results in connection with risk assessments in order to facilitate annual audit planning.




                                                                                                                   5
                                                         OIG NRC Safety Culture and Climate Survey – Executive Summary



SURVEY DESIGN

 As previously discussed, the 2009 Safety Culture and Climate Survey study consisted of four
 distinct areas. The interviews and Towers Perrin-ISR’s review of the 1998, 2002, and 2005
 Safety Culture and Climate Survey results served as the basis for designing the 2009
 questionnaire. The questions that composed the 2009 survey included selected items from
 Towers Perrin-ISR’s normative database as well as tailored items to address the unique topic of
 NRC’s safety culture and climate. The 2009 study, as a fourth iteration survey, provides the NRC
 with a distinct advantage: a comparison of the 2009 results with historical and norm items used
 in 1998, 2002 and 2005 survey administrations.

 During the survey design process, some survey items were added based on their relevance and on
 the interviews and focus groups. Likewise, some items were removed, because some concepts
 (e.g., Risk-Based Methodologies) are now mature and reflected throughout the agency’s
 regulatory framework. In addition, an inter-item correlation analysis was completed, and some
 items were removed due to high correlation of scores with other survey items. In all, the 2009
 survey contained 145 separate items, as compared with 186 items in 2005.

 After a brief review of the survey results and interview findings, this executive summary will
 highlight the quantitative findings of NRC’s survey results. First, the findings will emphasize
 the overall results, looking at specific areas of strength and opportunities for improvement for the
 NRC. Category-level results will be compared with Towers Perrin-ISR’s U.S. National Norm,
 U.S. Research and Development Norm (U.S. R&D), U.S. High Performance Norm, and the
 2005, 2002 and 1998 NRC Safety Culture and Climate Survey Results. The summary will then
 report internal comparisons such as office and regions, job grades, job categories, job functions,
 and years of service. Finally, a detailed analysis is provided that highlights the key findings of
 the Safety Culture and Climate Survey.




                                                                                                                    6
                                                          OIG NRC Safety Culture and Climate Survey – Executive Summary



SURVEY RESULTS IN BRIEF

Survey Administration Summary

  The OIG’s NRC Safety Culture and Climate Survey was administered from May 4 – May 29,
  2009. All NRC employees and managers were eligible to participate. Of the 3,935 employees
  asked to participate, 3,404 completed surveys, for an overall return rate of 87%. This return is
  significantly higher than previous survey administrations (most recently 71% participation in
  2005) and is more than sufficient to provide a reliable and valid measure of the current attitudes
  and perceptions of NRC employees and managers (Exhibit 1).

External Benchmark Summary

  When compared to the U.S. National Norm, the overall category profile for the NRC is
  significantly more favorable (utilizing statistical significance at the 95% confidence level, an
  industry standard) in all 15 comparable categories (Exhibit 3). Similarly, when comparing the
  NRC survey scores with the Towers Perrin-ISR U.S. R&D, 15 categories score significantly
  above the norm. The most favorable difference is Training and Development, which is 15
  points above the norm (see Exhibit 4). As the score demonstrates in this comparison, NRC
  employees’ opinions are generally more favorable than what would typically be observed among
  U.S. R&D populations.

  This year’s study provided a new external benchmark comparison; this comparison is the
  Towers Perrin-ISR U.S. High Performance Norm. The Towers Perrin-ISR U.S. High
  Performance Norm is comprised of a weighted average of employee survey results from a
  cross-section of U.S. operating companies. Data are derived from recent client studies
  conducted by Towers Perrin, and companies qualify for the inclusion by meeting two criteria:
  (a) superior financial results relative to industry performance; and (b) superior human resource
  practices, defined by top-quartile employee opinion scores. When compared to this rigorous
  norm, the NRC is significantly more favorable in 12 of the 14 comparable categories. The most
  favorable difference against this norm is Workload and Support, which is 10 points above the
  norm (Exhibit 5).

Historical Comparison Summary

  The historical comparison of results from 2005 to 2009 looks quite positive, with 16 of 17
  categories significantly more favorable than the 2005 NRC results. The most positive
  improvement since 2005 is the NRC Mission & Strategic Plan, which is 13 points above the
  2005 scores (Exhibit 6). Worth noting, NRC Mission & Strategic Plan experienced a double-
  digit improvement of 11 points from 2002 to 2005. This continuous double-digit improvement




                                                                                                                     7
                                                         OIG NRC Safety Culture and Climate Survey – Executive Summary


  suggests that the NRC Strategic Plan initiative is overwhelmingly well received by participants
  (Exhibit 6 and Exhibit 7).

  It is rare in Towers Perrin-ISR’s experience that scores improve to this degree between survey
  iterations. Efforts to follow up on the survey results from 2002 and 2005 appear to be extremely
  successful and should be communicated across the NRC. NRC employees and leaders alike
  have much to be proud of, given these results.

  Compared to 2002, the NRC has improved in 16 of the 17 categories. The most notable
  improvements were NRC Mission & Strategy and NRC Image, which were significantly more
  favorable in 2009 by 24 points and 23 points respectively. Management leadership also shows a
  major improvement, of 20 points more favorable in 2009 as compared to 2002 (Exhibit 7).

  The most notable historical improvements can be seen in the current 2009 study versus the
  study in 1998, with all 15 categories eligible for comparison showing double-digit
  improvements. Of the 15 categories, nine scored at least 20 points more favorable. Three of
  those categories—NRC Image, NRC Mission & Strategic Pan, and Management Leadership—
  scored at least 30 points higher this year (Exhibit 8).

Internal Comparison Summary

  Examining the NRC data in terms of office distinctions allows an interesting picture to emerge.
  In the comparison of category scores by Office/Division, Office of New Reactors (NRO), Region
  1, and Region IV are significantly more favorable than the NRC overall in two or more
  categories, including categories such as Clarity of Responsibilities, Management Leadership,
  Working Relationships, NRC Mission and Strategic Plan, and Organizational Change. While
  some offices are less favorable than the NRC overall scores, it is important to recognize that
  NRC’s overall scores were higher than the U.S. National, U.S R&D, and U.S. High Performance
  Norms in most categories (Exhibits 9, 10, and 11).

  Employees were also requested to identify their Job Category in the survey. Respondents could
  choose from senior management, middle management, line management, and non-supervisory
  classifications. Differences exist between responses from higher levels of management to the
  survey questions versus responses from line management and non-supervisory classifications.
  This pattern is particularly common among government and private sector organizations alike.
  Responses from senior management and middle management deviate by double-digit differences
  compared with NRC Overall scores (Exhibit 16).

  Among Job Function categories, employees in the Administrative/Support job function tended to
  have higher unfavorable scores when compared to NRC Overall. Conversely, employees in the
  Engineering job function tended to have significantly more favorable scores for many of the
  categories. (Exhibit 17).



                                                                                                                    8
                                                        OIG NRC Safety Culture and Climate Survey – Executive Summary


Survey Results Summary

  In summary, the 2009 OIG NRC Safety Culture and Climate Survey results are significantly
  more favorable in all 15 comparable categories when compared to the U.S. National Norm, in all
  15 comparable categories when compared to the U.S. R&D Norm, and in 12 of the 14
  comparable categories when compared to the U.S. High Performance Norm. No categories in
  the 2009 NRC Survey results compared to any of the three norms are significantly less favorable.

  Comparing the 2009 to the 2005 NRC results, 16 of 17 categories have significantly improved,
  from 13 points in NRC Mission & Strategic Plan to 3 points in Workload and Support. The
  remaining category, Organizational Change, did not show any change from the 2005 results.




                                                                                                                   9
                                                          OIG NRC Safety Culture and Climate Survey – Executive Summary




INTERVIEW FINDINGS
  As the qualitative design component of the Safety Culture and Climate Survey, Towers Perrin-
  ISR, in coordination with OIG staff, conducted on-site and phone interviews and on-site focus
  groups. The interviewees and focus groups were asked questions on a variety of areas. The
  methodology used to create these questions was based on the key driver areas and lower-scoring
  (and some higher-scoring) areas from the 2005 survey, as well as other key factors, such as
  NRC’s key current initiatives. A total of 34 interviews and 29 focus group meetings were
  conducted from February 3 to February 19, 2009. A total of 204 individuals participated in
  interviews and focus group meetings, including 138 at Headquarters in Rockville, 27 at Region II
  in Atlanta, 32 at Region III in Lisle, and 7 by phone. The 204 individuals who were interviewed
  included a cross section of professions such as administrative, security, nuclear engineers,
  managers, and internal safety culture task force. Findings from interviews and focus group
  meetings were used in developing the survey instrument.

            LOCATION                                NUMBER OF EMPLOYEES

            Region II employees interviewed/focus group participants                      27
            Region III employees interviewed/focus group participants                     32
            Headquarters employees interviewed/focus group participants                  138
            Headquarters, Region I & II employees interviewed by phone                     7
            Total - NRC                                                                  204

  Towers Perrin-ISR used interview guides to assist in conducting interviews and focus groups.
  The following is a summary of the main themes discussed in these meetings. Each of these
  themes includes an overall description or summary.

Agency’s Primary Mission and Objectives

  Focus group and interview respondents were very positive about the agency’s primary mission
  and objectives. It is believed that the agency’s mission and objectives are very clearly stated and
  understood. Respondents perceive that the agency’s mission and objectives are to successfully
  protect the public. There are some concerns, though, about how the role of politics may impact
  technical decisions in accordance with the NRC’s mission.




                                                                                                                   10
                                                          OIG NRC Safety Culture and Climate Survey – Executive Summary


Challenges to Agency’s Future Success

  Three key areas were commonly mentioned as challenges to the agency’s future success. The
  first is that the new administration’s position is unknown. This could affect the agency in terms
  of budget cuts. For example, there may be a need to move people out of the work area associated
  with the licensing of the High Level Waste Repository and place these individuals into other
  areas within the NRC.

  A second concern is the potential lack of skilled workforce, for example, to handle the new
  licenses or increased work. In addition, there is a fear of losing talent both due to retiring
  workers and to talent going to work on new construction and/or government projects.

  The third concern is related to communication and ensuring that all employees feel that they are
  part of the whole agency. This is primarily a concern due to the seven different locations in
  Washington. While there is a potential for this issue to be resolved by a new building, the agency
  needs to continue to make an extra effort around this area.

NRC Image

  Interview and focus group respondents feel that NRC’s image varies depending on where in the
  agency one works, and perceptions of the public’s opinion about the NRC vary as well. NRC’s
  internal image is perceived as very positive, and many individuals from other government
  entities want to come and work for NRC. NRC’s public image is perceived as being different in
  each region or location. Many interview and focus group respondents feel that the public does
  not understand the NRC’s purpose. In addition, respondents feel that the regions are doing a
  better job speaking with the public compared to headquarters, because regions are required to
  hold town hall meetings.

Quality Focus

  When asked about quality focus, respondents often mentioned metrics, which state the amount of
  time and resources different projects at the agency should require. Some individuals questioned
  whether the current focus is on maintaining the NRC’s safety culture or on “hitting the metrics.”
  These same individuals feel that metrics often give individuals less time to follow up on tasks or
  notes (e.g., Resident Inspectors). Others believe that metrics are beneficial but individuals need
  to monitor their work throughout the process. If work is continually monitored, then those
  monitoring work will know if additional time is required in advance of the project ending and
  can request extensions as needed.

  Another concern is that requests from Capitol Hill may be assigned a higher priority and
  completed on a faster track than other work.




                                                                                                                   11
                                                          OIG NRC Safety Culture and Climate Survey – Executive Summary


Workload

  The majority of interview and focus group respondents feel that their workload is acceptable,
  with only a few points during the year when workload increases. However, some respondents
  feel that changing priorities by the agency make it difficult to complete work. In addition,
  workload is perceived slightly differently by job level. In general, administrative staff would like
  more work, inspectors feel that their level of work is manageable (though Resident Inspectors
  often feel overworked), and some managers feel a bit overwhelmed.

Empowerment

  The general consensus is that employee opinions are valued and managers are willing to listen.
  Several programs have been created to help NRC employees voice concerns, including Non-
  Concurrence, Differing Professional Opinion Program (DPO), open door policy, and team
  member award. The team member award is viewed as having the best effect when compared to
  the other programs. Many interview and focus group respondents feel that employees are
  submitting more Non-Concurrences than DPOs because it is perceived by employees that
  submitting a DPO could alter your career at the NRC. The open door policy is perceived as going
  around the chain of command and not as effective. With regard to all of these programs, the
  respondents would like less focus on process and forms and more focus on how the NRC can
  have an open and cooperative work environment.

Diversity and Inclusion

  The agency is more diversified today than three years ago with respect to ethnicity, age, and
  lifestyle. However, individuals feel that there should be more focus on how the NRC can have an
  open and cooperative work environment. While many employees do feel that their opinions are
  valued, this area should continue to improve.

Performance Management (e.g., Review Process)

  Respondents expressed strong opinions about the performance management system. Most
  respondents feel that the current performance management system is ineffective, that the scale
  and ratings do not make sense, and the end appraisal is too subjective with inflated and artificial
  results. These same critics feel that a pass/fail system, or not having the review process linked to
  the reward process, would make the review process more effective.

Retirement of Staff and Recruitment of Individuals

  When Towers Perrin-ISR last spoke with the NRC four years ago, there was a fear that one-third
  of the staff would be retiring within the next five years. While the predicted high numbers of




                                                                                                                   12
                                                           OIG NRC Safety Culture and Climate Survey – Executive Summary


  staff may not have left (one third) a series of compensating strategies were introduced to address
  the numbers that did leave – the use of new Personnel flexibilities (e.g., increase in the numbers
  of rehired annuitants as consultants, etc.). Also, the expected “bow wave” of new nuclear power
  plant applications has resulted in a significant number of new hires, the associated need for new
  space, and overall growth at the agency. Overall, recruitment strategies such as permitting the
  workforce to work from home, the summer intern program, and incentives such as partial
  payment on school loans for each year of service have been successful.

Knowledge Transfer

  Although the general consensus among interview and focus group respondents is that the NRC
  has made great improvements in this area with a new knowledge transfer program, some
  respondents believe that the agency is still not doing enough. It appears that work in this area is
  done on an Office-by-Office and Region-by-Region basis. Many new hires have a thirst or
  desire to have more information transferred. Retired individuals have been rehired to participate
  in the knowledge transfer program but it is perceived that these individuals sometimes end up
  performing actual work instead of transferring knowledge.

Career Development and Training

  Interview and focus group respondents perceive HR-led training to be effective. Technical
  training, which respondents regard as desirable, is perceived as inaccessible for some job grades,
  who believe they cannot obtain the necessary permission to attend due to program and travel
  costs, or frozen funding sources. One potential solution or suggestion is for long-term training
  with universities to be held onsite at headquarters.

  Many respondents said that the move of the Professional Development Center (PDC) to an off-
  site location in Bethesda has made it easier to focus on training courses without being called
  back to work by one’s supervisor. Perceptions of the i-Learn system were mixed; many found it
  to be a positive sign of the NRC’s continued focus on employee training, whereas others found
  the system extremely non-user-friendly.

  In addition, respondents, especially inspectors, frequently feel that on-the-job technical training,
  while vital, is also time-consuming. It is perceived that workload should be reduced to account
  for the extra hours spent performing on-the-job training.

Career Advancement

  Perceptions of opportunity for career advancement differed by level, though most employees
  were favorable. Inspectors and managers feel that there are more opportunities for advancement,
  as a result of expansion and an easier opportunity to move from a GG level 14 to a GG level 15.




                                                                                                                    13
                                                         OIG NRC Safety Culture and Climate Survey – Executive Summary


  Employees in general feel that opportunities for advancement are stronger now than ever, due to
  the NRC’s expansion over the last few years. However, administrative employees believe that
  there are limited opportunities for advancement. In addition, when a position does open that
  might allow an administrative individual to move from level 5 to 6, it is perceived that the
  agency is more likely to hire someone external than internal.

  One ancillary issue is that “management churn”- rapid rotation of supervisors from department to
  department - provides excellent advancement opportunities for those individuals, and pays
  dividends to the NRC, but does make for a difficult environment for the employees in the
  departments whose supervisors are rotating.

Budget (e.g., CR)

  Overall perceptions are that the agency’s budget is sufficient. There are concerns about not
  knowing the new Administration’s plans. The FY 2009 Continuing Resolution appears to have
  the highest impact on the NRC with reduced travel and the future licensing of the High Level
  Waste Repository.

Communication

  Interview and focus group respondents feel there are too many sources of communication at the
  NRC. For example, some participants felt they receive too many emails that do not pertain to
  them. They cite the added communication complexities of Washington, having several locations,
  and needing to make a significant effort to ensure employees feel included. The communication
  sources that were viewed as having the best information include Inside the NRC and Yellow
  Announcements. In addition, many administrative individuals enjoy reading the quarterly letter
  and attending the 8:15 meetings in their areas. However, Resident Inspectors tend to feel that the
  quarterly letter is less effective.

Management

  The new management team is perceived as being as effective as the previous management team.
  Interview and focus group respondents feel that the new Office of the Executive Director for
  Operations (OEDO) is more empowering, allowing employees to be more involved in decisions
  that affect their work.

IT Support

  There have been several recent changes in the technology department, including new staff, the i-
  Learn system, and a new online travel system. There were mixed feelings about the new online
  travel system. The i-Learn system is perceived as a step in the right direction but could be more
  user-friendly. The new IT leadership has made several improvements but there are still several



                                                                                                                  14
                                                      OIG NRC Safety Culture and Climate Survey – Executive Summary


  changes to be made. Some interview and focus group respondents feel that the government is
  always one generation of technology behind the mainstream, which some respondents attribute
  to legacy senior staff being unwilling to bring in new processes or systems.

Conclusion of Qualitative Interview Results

  In conclusion, NRC’s primary mission and objectives, internal image, and workload were
  perceived favorably by interview and focus group respondents. There may be room for
  improvement in ensuring there is adequate skilled workforce, performance management, and
  creating a more cooperative work environment with fewer processes and forms. Interview and
  focus group respondents had mixed perceptions about NRC’s knowledge transfer, career
  development and training, career advancement, and IT progress.

  Some new themes emerged during this year’s discussions as well. There is less focus on the
  DPO and Non-Concurrence processes themselves, and more emphasis on creating an open and
  collaborative work environment within the NRC. Further, the perception of frustration with
  career advancement - especially between the GG-14 and GG-15 levels - seems to have
  evaporated as the result of opportunities associated with the NRC’s expansion.




                                                                                                               15
                                                         OIG NRC Safety Culture and Climate Survey – Executive Summary



SURVEY DEVELOPMENT / PRETEST

  A pretest version of the survey instrument was developed based on Towers Perrin-ISR’s research
  into safety culture; qualitative review of the 2005, 2002 and 1998 survey questionnaires; the
  qualitative interview findings, and Towers Perrin-ISR’s experience in other government and
  private sector organizations. The pretest survey contained both Towers Perrin-ISR normed and
  NRC tailored questions, and was tested with a broad cross-section of NRC employees, using a
  random sample of individuals from multiple NRC locations.

  Survey questions were grouped into 17 categories, representing the major topics of the NRC’s
  Safety Culture and Climate. A list of the categories, along with a brief description of the items
  each category contains, is provided in the following pages. For each category, the average
  favorable response (percentage of employees responding favorably to a given set of questions)
  was calculated; Exhibit 2 of this report shows the percent-favorable response for each survey
  category. Beginning at Exhibit 3, we present comparisons of the 2009 survey results with 1998,
  2002 and 2005 NRC historical results, Towers Perrin-ISR’s U.S. Research and Development
  Norm, U.S. National Norm, and U.S. High Performance Norm.

Survey Categories

  1.   Clarity of Responsibilities: Assesses clarity of job responsibilities, duplication across
       work units, and task prioritization.

  2.   Management Leadership: Probes employees’ views of the various management levels
       within the NRC, including management style, management direction, and confidence in
       management decisions.

  3.   Supervision: Examines employee perceptions of their immediate supervisors’ technical
       competency; level of authority; availability; communication skills; people management and
       team-building skills; attention to staffing needs; competency for understanding future
       needs; and their level of effectiveness when working with people of different gender,
       racial/ethnic background, or lifestyle.

  4.   Working Relationships: Measures the level of cooperation, respect, and teamwork among
       employees, work units, divisions, office/regions, and headquarters.

  5.   Empowerment: Assesses the amount of authority employees have to do their jobs, the
       trust they receive from management, the openness to discuss differing opinions, the ability
       to openly and confidently raise issues, and whether NRC’s climate allows one to be
       innovative.




                                                                                                                  16
                                                       OIG NRC Safety Culture and Climate Survey – Executive Summary


6.    Communication: Evaluates the availability of information about matters affecting the
      agency, and information employees need to do their job. It also assesses the degree of
      openness that employees feel they have in speaking up in the NRC. This category measures
      employees’ understanding of the goals and objectives of their work unit, division,
      office/region, and NRC as a whole and the NRC Strategic Plan. This category also
      measures the effectiveness of various internal communication vehicles.

7.    Workload and Support: Evaluates the level of staff resources to handle the workload, the
      amount of stress employees experience on the job, prioritization and resource allocation to
      improve efficiency of work, such as the dissemination of information. This category also
      evaluates employees’ understanding of the NRC’s safety culture.

8.    Training and Development: Assesses availability and quality of training, knowledge of
      safety concepts, recruitment and retention of talented employees, development of
      employees to their full potential, and perceptions of career progression within the NRC.
      Also provides employees the opportunity to identify barriers to attending NRC-sponsored
      and other publicly/privately offered training courses.

9.    Performance Management: Explores NRC’s recognition for quality of performance, and
      investigates the breadth, utility, and understanding of performance reviews.

10.   Job Satisfaction: Examines employees’ views on job satisfaction. This category asks if
      employees feel a sense of accomplishment from their jobs, and if they feel as though their
      jobs are important to the NRC.

11.   Engagement: Probes employees’ willingness to recommend the NRC as a good place to
      work, whether they feel they are a part of the agency, their pride in working for the NRC
      and their belief in NRC goals, objectives and values. This category also measures
      employee intent to leave for both retirement- and non-retirement-related reasons.

12.   NRC Mission and Strategic Plan: Assesses the clarity of NRC’s mission and strategic
      plan, and whether employees believe management decisions are consistent with the mission
      and strategic plan. In addition, this category assesses the use of the strategic plan in
      assisting employees in prioritizing their work and formulating budgets.

13. NRC Image: Examines employee perceptions of whether NRC is highly regarded by its
    various stakeholders; NRC’s effectiveness in communicating to the general public, and
    whether all employees are held to the same standards of ethical behavior. Also, this
    category assesses the factors that attract people to working at the NRC.




                                                                                                                17
                                                       OIG NRC Safety Culture and Climate Survey – Executive Summary


14.   Organizational Change: Evaluates employees’ views on the future of the industry and
      their concerns about changes in management. Employees are also asked to rate how things
      have changed from the past and will change in the future for the NRC as a whole.

15.   Continuous Improvement Commitment: Assesses employee views on NRC’s
      commitment to public safety and whether employees are encouraged to communicate ideas
      to improve safety/regulations/operations. This category also measures the NRC’s effort to
      capture and record the collective experience of retiring employees for future use in the
      agency.

16. Quality Focus: Explores employee views on the quality of NRC’s (divisions’) work, as
    well as, the sacrifice of quality work due to the need to meet a deadline or the need to
    satisfy a personal or political agenda.
17.   Open, Collaborative Work Environment: This category probes the degree to which
      employees are satisfied with the different programs/policies that are available at the NRC
      (e.g., the Differing Professional Opinions Program, the Open Door Policy, and the Non-
      Concurrence Program). This category also addresses employees comfort with
      communicating with different levels of management.




                                                                                                                18
                                                                 OIG NRC Safety Culture and Climate Survey – Executive Summary




SURVEY ADMINISTRATION

  The OIG’s NRC Safety Culture and Climate Survey was administered to all employees and
  managers, from May 4 through May 29, 2009. Of the 3,935 employees asked to participate,
  3,404 completed valid1 surveys, for an overall return rate of 87%. This return is significantly
  higher than previous survey administrations and is more than sufficient to provide a reliable and
  valid measure of the current attitudes and perceptions of NRC employees and managers.

  Exhibit 1




  1
      A valid survey is when the individual selects at least one coding question and at least one opinion
  question. There were not any invalid surveys for NRC for the 2009 Survey Administration.




                                                                                                                          19
                                                       OIG NRC Safety Culture and Climate Survey – Executive Summary




OVERALL CATEGORY SCORES

 The average favorable response score for each category (percentage of employees responding
 favorably to a given set of questions) was calculated and is provided below. All of the 17
 categories demonstrate majority favorable scores (defined as greater than 50% favorable
 responses), with the most favorable being Job Satisfaction at 88% favorable.

 The category scores range between 55% favorable to 88% favorable, with Job Satisfaction,
 Engagement, Clarity of Responsibility, NRC Mission & Strategic Plan, Working Relationship,
 and NRC Image all being characterized by employees as most favorable, with scores at 80% or
 better. The remaining categories range from Supervision at 79% to Organizational Change at
 55% (the lowest-scoring category). In reviewing “raw” category scores, caution should be
 exercised in the absence of historical or external benchmarks. The favorability of many questions
 in the general U.S. population tends to be lower than one might expect.

 Exhibit 2




                                                                                                                20
                                                         OIG NRC Safety Culture and Climate Survey – Executive Summary



COMPARISON OF NRC WITH THE U.S. NATIONAL NORM

  A Towers Perrin-ISR norm is a weighted sample of employee responses categorized by nation,
  industry, function, or performance. The first benchmark NRC is compared with is the U.S.
  National Norm. This norm is comprised of organizations representing a broad spectrum of
  industries across the United States and has been updated in the last 12 months. The norm
  includes 159,163 cases (weighted average) from individual respondents. Employees in the norm
  are Hourly, Salaried, Exempt and Non-Exempt up to and including Executives. Organizations in
  the norm are weighted to ensure proper proportionality.

  Exhibit 3




  The overall category profile for the NRC is above the U.S. National Norm, as illustrated in the
  graphic. The norm score for a category is represented by the center line in the graph. The NRC
  is significantly more favorable in all 15 comparable categories represented by the green bars, the
  greatest difference being for NRC Mission & Strategic Plan which is 13 points higher than the
  U.S. National Norm.




                                                                                                                  21
                                                        OIG NRC Safety Culture and Climate Survey – Executive Summary


Whenever a percent favorable or unfavorable response between two groups is displayed, a
statistical test is conducted to determine how confident we can be about whether the difference in
scores represents a “real” difference in opinion or is it more likely the difference was caused by
random chance. A statistically significant difference is one that is large enough, given the size of
the groups being compared, to be unlikely to be caused by chance. Statistically significant
differences are therefore thought to be indicators of real difference between the two groups being
compared. A statistically significant difference indicates there is less than a 5% chance the
difference occurs randomly.

The previous graphic does not show results for Organizational Change or Open, Collaborative
Working Environment because they are categories containing unique tailored questions specific
to the NRC and do not have U.S. National Norm equivalent questions.




                                                                                                                 22
                                                      OIG NRC Safety Culture and Climate Survey – Executive Summary



COMPARISON OF NRC WITH U.S. RESEARCH AND DEVELOPMENT NORM

 The U.S. Research and Development Norm is a representative sample of the U.S. research and
 development workforce weighted according to Bureau of Labor Statistics data. This norm
 contains a representative sample of organizations throughout the U.S. and includes 22,085 cases
 (weighted average) from R&D functions. When comparing the 2009 NRC survey scores with the
 U.S. Research and Development Norm, 15 categories score significantly above the norm. The
 most favorable difference is Training and Development which is 15 points above norm. As the
 scores demonstrate in this comparison, NRC employee opinions are generally more favorable
 than what would typically be observed among U.S. R&D populations.

 Exhibit 4




                                                                                                               23
                                                      OIG NRC Safety Culture and Climate Survey – Executive Summary


COMPARISON OF NRC WITH U.S. HIGH PERFORMANCE NORM

 The Towers Perrin-ISR U.S. High Performance Norm is comprised of some of the top
 performing organizations in the U.S., included because they meet two criteria - very strong
 financial results and very high employee survey scores. An organization must meet both criteria
 in order to be included in this norm.

 When comparing the NRC results to the U.S. High Performance Norm, NRC had 12 categories
 with significantly more favorable scores. Workload and Support showed the highest difference
 of 10 points. Management Leadership and NRC Image categories were not statistically
 significantly different when compared to the U.S. High Performance Norm.

 Exhibit 5




                                                                                                               24
                                                     OIG NRC Safety Culture and Climate Survey – Executive Summary


COMPARISON OF NRC 2009 RESULTS WITH NRC 2005 RESULTS

 The historical comparison of results from 2005 to 2009 is quite favorable, with 16 of 17
 categories statistically more favorable than the 2005 NRC results. The NRC Mission & Strategic
 Plan category is the most favorable comparison to 2005 results, up by 13 points. NRC Image,
 Performance Management, Continuous Improvement Commitment, Management Leadership and
 Open, Collaborative Working Environment also experienced double-digit improvements of 10 to
 12 points. Organizational Change did not have any difference when compared to the results
 from 2005.

 Exhibit 6




                                                                                                              25
                                                     OIG NRC Safety Culture and Climate Survey – Executive Summary


COMPARISON OF NRC 2009 RESULTS WITH NRC 2002 RESULTS

 Compared to 2002, the NRC has improved in 16 categories, from NRC Mission & Strategic
 Plan, which is significantly more favorable in 2009 vs. 2002 by 24 points, to Workload and
 Support, which has improved by 5 points. Organization Change showed an improvement of 1
 point; however, it was not a statistically significant difference.

 Exhibit 7




                                                                                                              26
                                                     OIG NRC Safety Culture and Climate Survey – Executive Summary


COMPARISON OF NRC 2009 RESULTS WITH NRC 1998 RESULTS

 When compared to 1998, the results from 2009 showed statistically significant improvements for
 15 categories. NRC Image, NRC Mission and Strategic Plan and Management Leadership all
 showed improvements of more than 30 points. All other comparable categories showed
 improvements of at least 11 points. Performance Management and Open, Collaborative Working
 Environment did not exist in the 1998 so comparisons could not be made.

 Exhibit 8




                                                                                                              27
                                                         OIG NRC Safety Culture and Climate Survey – Executive Summary


INTERNAL COMPARISONS

 The following internal comparisons illustrate how various subgroups within NRC (i.e., offices,
 regions, grade levels, job category, job functions, and various tenures) vary at the category-level
 average compared with NRC overall. Please note that in these charts, statistically significant
 differences are indicated by colored (green or red) cells.

 When reviewing any of the internal comparisons, such as the graph on the next page, it should be
 noted that while all respondents are included in the overall number (N=3,404), not all employees
 provided a response to every coding question in the survey. For this reason, the sum of all
 groups may not be equal to the total NRC Overall combined group. Also, groups with N<20 are
 included in the overall NRC population counts, but are not broken out separately, to ensure
 confidentiality for each respondent.




                                                                                                                  28
                                                          OIG NRC Safety Culture and Climate Survey – Executive Summary



Office Comparisons

  Examining the NRC data in terms of office distinctions allows an interesting picture to emerge.
  In this first set of comparisons listed in the following graphic, most of the offices did not show
  any significant differences from NRC overall. However, Office of Investigations (OI) did have
  significantly lower scores on both Job Satisfaction and Engagement.

  Headquarters Overall (N=2,534) has little statistical difference to the NRC Overall. This is due
  to the fact that Headquarters has a significant number of respondents as part of the overall survey
  respondent population.

  Exhibit 9




                                                                                                                   29
                                                       OIG NRC Safety Culture and Climate Survey – Executive Summary


Office of Administration (ADM), Office of the Chief Financial Officer (OCFO), and Office of
Information Services (OIS), have a number of categories that are significantly less favorable than
the NRC Overall, with Research statistically lower in 11 to 17 categories. Conversely, the Office
of New Reactors (NRO) has two categories that are statistically more favorable: Empowerment
and NRC Image.

A communication question was added to the survey in 2009, on whether multiple office locations
in the Washington area inhibit effective communication. Office of Nuclear Reactor Regulation
(NRR) and Office of Nuclear Regulatory Research (RES) perceived having multiple office
locations is less favorable than other groups within the NRC. Office of Administration (ADM),
Office of Nuclear Material Safety and Safeguards (NMSS), and Office of Information Services
(OIS) perceived this item more favorably than other groups.

Exhibit 10




                                                                                                                30
                                                     OIG NRC Safety Culture and Climate Survey – Executive Summary


Region Overall, Region I, and Region IV had two or more categories that were significantly
more favorable than NRC Overall. Region I had three categories that were significantly more
favorable: Clarity of Responsibilities, Working Relationships and Organizational Change.
Region IV had two categories that were statistically more favorable: Management Leadership
and NRC Mission and Strategic Plan. Regions II and III were not significantly different from
NRC Overall.

Exhibit 11




                                                                                                              31
                                                       OIG NRC Safety Culture and Climate Survey – Executive Summary



Office Historical Comparisons

  Each office was also compared to its own 2005 score on each category. The numbers in the cells
  below and on the next two pages indicate the improvement or decline for that office versus its
  own 2005 results, by category. A number of groups have experienced significant improvements
  while others have been able to maintain the same level of results as the previous survey.
  Headquarters Overall had 16 categories with a statistically significant improvement from 2005.
  NRC Image has improved by 14 points while Performance Management and NRC Mission &
  Strategic Plan improved by 13 points.

  Exhibit 12




                                                                                                                32
                                                    OIG NRC Safety Culture and Climate Survey – Executive Summary


The Office of Nuclear Security and Incident Response (NSIR) and the Office of Nuclear
Regulatory Research (RES) both had the highest amount of categories that were significantly
more favorable when compared to the results from 2005: NSIR with 16 categories more
favorable and RES with 17 categories more favorable. Almost all of these categories also
showed a double-digit improvement from the 2005 results. RES had 7 categories with an
improvement of 20 points or more, with Management Leadership showing the highest
improvement, of 30 points. The Office of Nuclear Material Safety and Safeguards (NMSS) and
the Office of Nuclear Reactor Regulation (NRR) also have several categories that are
significantly more favorable when compared to the results in 2005 - 6 categories and 12
categories, respectively. There are no categories in any of the offices below that showed a
significant decrease in favorability when being compared to the 2005 results.

Of all the categories, Performance Management showed significant improvements in the highest
number of offices: 5 out of 8.

Exhibit 13




                                                                                                             33
                                                     OIG NRC Safety Culture and Climate Survey – Executive Summary


Regions I, III and IV had significantly more favorable scores for several categories: four
categories for Region 1, seven categories for Region III, and three categories for Region IV.
Region II had a significantly more favorable score for the NRC Mission and Strategic Plan but
had a significantly less favorable score for Organizational Change when compared to the 2005
results.

Exhibit 14




                                                                                                              34
                                                        OIG NRC Safety Culture and Climate Survey – Executive Summary



Grade Level Comparisons

  Another comparison of interest is grade level. The pattern demonstrated in the chart below is
  very typical of government and private sector clients, regardless of industry or sector. The NRC
  data reveal statistically significant positive responses from the SES/Executive, the most senior
  layer of the agency (the column to the extreme right in the graphic). GG-13’s, GG-15’s and
  Senior Level/Administrative Law Judges are either equal to, or had more favorable responses in
  several categories, when compared to NRC Overall, while GG-1 to GG-10, GG-11 to GG-12,
  and GG-14 had significantly less favorable scores for several categories.

  GG-14 had the highest number of categories that were significantly less favorable when
  compared to NRC Overall: Clarity of Responsibilities, Management Leadership, Empowerment,
  NRC Mission and Strategic Plan, and Continuous Improvement Commitment. This is consistent
  with the findings of 2005 results as well.

  Exhibit 15




                                                                                                                 35
                                                        OIG NRC Safety Culture and Climate Survey – Executive Summary



Job Category Comparisons

  Employees were requested to identify their Job Category in the Coding Section of the survey,
  choosing from senior management, middle management, line management, and non-supervisory
  classifications. The pattern displayed below is particularly common among government and
  private sector organizations alike. However, it remains interesting to see the sharp differences
  between higher levels of management and other employees at the line management and non-
  supervisory levels. Senior management and middle management deviate by double-digit
  differences compared with NRC Overall scores.

  Exhibit 16




                                                                                                                 36
                                                        OIG NRC Safety Culture and Climate Survey – Executive Summary



Job Function Comparisons

  As noted in the chart illustrating Job Function Comparisons, there is very little difference
  between Legal and Scientific job functions when compared to NRC Overall. However,
  Administrative Support employees are significantly less favorable in nine of the 17 categories –
  the highest difference being -7 for Open, Collaborative Working Environment.

  The Engineering job function had significantly more favorable scores for eight of the 17
  categories. All the category score increases were in the single digits with Empowerment
  showing the highest increase of 5 points.

  Exhibit 17




                                                                                                                 37
                                                         OIG NRC Safety Culture and Climate Survey – Executive Summary



Length of Service Comparisons

  When employee opinion data are segmented according to length of service groups, there is little
  difference in scores. This is unusual when compared and contrasted with private sector
  organizations, where employees with between 5 to 10 years of service often respond unfavorably
  to the topics addressed in the survey compared to the rest of their organization. The absence of
  significant variation in category results at the NRC indicates that tenure is not a major factor in
  how employees respond to the questions in the survey.

  No levels of tenure vary significantly from the NRC Overall. However, it is interesting to note
  that employees with 25+ years of service scored significantly lower on Engagement (-5). This is
  perhaps because they do have an intent to leave the organization (for some, due to retirement),
  which is a survey item within the Engagement category.

  Another interesting finding is the lack of statistically significant favorable differences for
  employees with 20 years of service or more. Generally in Towers Perrin-ISR’s experience, this
  group tends to be more favorable than other groups of employees due to their length of service
  with the organization. In the case of the NRC, this population is generally equal to the overall
  results.

  Exhibit 18




                                                                                                                  38
                                                      OIG NRC Safety Culture and Climate Survey – Executive Summary


Senior Resident Inspectors Versus Resident Inspectors
  When a comparison is done between Senior Resident Inspectors versus Resident Inspectors, no
  significant differences are found.

  Exhibit 19




                                                                                                               39
                                                          OIG NRC Safety Culture and Climate Survey – Executive Summary


KEY DRIVER ANALYSIS

  A key driver analysis (multiple regression) enables the identification of those critical areas that
  drive employee engagement. In the case of the 2009 NRC Safety Culture and Climate Survey,
  employee engagement was investigated. In order to determine the critical factors that influence
  employee engagement, the Engagement category is designed to empirically measure employee
  engagement. It was utilized as the dependent variable in the key driver analysis, while all other
  questions contained in the survey serve as the independent variables and are regressed on the
  Engagement Index.

  Total Favorable in the results charts that follow is the combination of the “Agree”/“Tend to
  Agree” responses. The Question Mark response is comprised of employees who do not know or
  do not have an opinion to the question. Total Unfavorable are employees that responded with a
  “Tend to Disagree” or “Disagree” response to the question.

  The Engagement category is composed of the following items:

  Exhibit 20




      I believe strongly in the goals and objectives of this organization. (Question 54)
      I fully support the values for which this agency stands. (Question 63)




                                                                                                                   40
                                                   OIG NRC Safety Culture and Climate Survey – Executive Summary


Exhibit 21




    The longer you work for the NRC, the more you feel a part of the agency. (Question 11)
    I would recommend the NRC as a good place to work. (Question 29)
    I am proud to be associated with the NRC. (Question 44)




                                                                                                            41
                                                    OIG NRC Safety Culture and Climate Survey – Executive Summary



Exhibit 22




    The NRC energizes me to go the extra mile. (Question 71)
    At the present time, are you seriously considering leaving the NRC? (Question 84)
    Are you seriously considering leaving the NRC because of your retirement? (Question
     85)

   The results of the Key Driver Analysis are shown on the following pages.




                                                                                                             42
                                                       OIG NRC Safety Culture and Climate Survey – Executive Summary



Exhibit 23




The Total Variance Explained for this model is 66%, which is considered highly predictive of the
dependent variable Engagement. This indicates that 66% of all of the variation in responses to
Engagement can be accounted for by the responses to these three categories. The .42, .27, and
.20 for the key driver categories are regression coefficients, which indicate the relative strength
of each category in driving engagement. The categories have been listed in the chart above,
then, in order of how strongly they predict engagement of NRC employees.

In interpreting this model, we can assume that individuals responding favorably to Engagement
Index items also responded favorably to the items determined to most influence Engagement.
Conversely, individuals responding unfavorably to Engagement Index items also tended to
respond unfavorably to the items determined to most influence Employee Engagement. It is
apparent that employee engagement at the NRC is highly affected by attitudes toward
Management Leadership, Continuous Improvement Commitment and Training and
Development.




                                                                                                                43
                                                       OIG NRC Safety Culture and Climate Survey – Executive Summary


Exhibit 24




We continued the analysis to identify the actual questions driving engagement. Six items
emerged from the analysis:
   The management style at the NRC encourages employees to give their best.
   Management of the agency recognizes and respects the value of human differences.
   People in my work unit are encouraged to come up with innovative solutions to work-
    related problems.
   I believe the NRC’s commitment to our security mission is apparent in what we do on a
    day-to-day basis.
   I believe I have the opportunity for personal development and growth in this organization.
   I think the NRC is doing a good job of developing its people to their full potential.

Key driver analysis serves as an important tool in prioritizing issues for post-survey follow-up
activities.




                                                                                                                44
                                                       OIG NRC Safety Culture and Climate Survey – Executive Summary


The table below shows the results of the key driver analysis for Employee Engagement,
comparing NRC scores to the NRC 2005 results, U.S. Research & Development and the U.S.
High Performance Norms.

Exhibit 25




As can be seen above, both the items in Training and Development are significantly above the
three benchmarks. Additionally, the first item from Continuous Improvement Commitment
("People in my work unit are encouraged to come up with innovative solutions to work-related
problems") is significantly above all three benchmarks. The second item in the Continuous
Improvement Commitment category was developed specifically for the NRC, and does not have
a historical comparison or either norm comparison.

In the Management Leadership category both items were 1 point below the U.S. High
Performance Norm. The first item ("The management style at the NRC encourages employees to
give their best") had significantly more favorable scores for the historical comparison and for the
U.S. R&D comparison: 12 and 16 points above, respectively. The second item ("Management of
the agency recognizes and respects the value of human differences") had a significantly more
favorable score when compared to the historical.




                                                                                                                45
                                                      OIG NRC Safety Culture and Climate Survey – Executive Summary


The importance of Employee Engagement cannot be underestimated. Engaged employees have
higher allegiance to an organization, are willing to expend extra effort, recommend the agency to
others as a great place to work and are committed to staying with the organization.




                                                                                                               46
                                                         OIG NRC Safety Culture and Climate Survey – Executive Summary



CONCLUSION

 Overall, the NRC has a variety of strengths to build from. The results are very positive in relation
 to a wide variety of norms and historical results from 2005, 2002, and 1998. The 2009 NRC
 Safety Culture and Climate Survey results show significant improvements over the 2005 results,
 with 16 of 17 categories significantly more favorable. The largest increases were in NRC
 Mission and Strategic Plan, NRC Image, and Performance Management. Compared to the U.S.
 National Norm, the NRC is statistically more favorable in all of the 15 comparable categories.
 Compared to the U.S. Research and Development Norm, the NRC is more favorable in all of the
 15 comparable categories. When compared to the U.S. High Performance Norm, 12 of the 14
 comparable categories were significantly more favorable.

 The most improved scores from 2005 are:
    17a. “I am aware of the following methods to raise a concern: The Non-Concurrence
     Process"
            o Improved by 37 points.
    82. “Regarding the NRC’s strategic plan, I believe the plan helps me formulate my budget”
            o Improved by 30 points.
    17c. “I am aware of the following methods to raise a concern: The Open Door Policy”
            o Improved by 25 points.
    85. “Are you seriously considering leaving the NRC because of your retirement?”
            o Improved by 23 points.
    56. "The NRC has done an effective job of capturing the knowledge of retiring NRC
     employees"
            o Improved by 17 points.

 The questions that had the highest decrease compared and contrasted to 2005 are:
    91b. “How often do the following interfere with your attending training for your current job:
     Availability of classes/courses" (N)
            o Decreased by -8 points. (Negatively worded item; this indicates that more NRC
               employees in 2009 feel that class/course availability interferes with attending
               training than did in 2005)
    88e. “How effective are the following at enhancing internal communications: EDO
     Updates”
            o Decreased by -7 points.
    14a. “I am frequently concerned about the following: The future of the nuclear industry” (N)
            o Decreased by -4 points. (Negatively worded item; this indicates that more NRC
               employees in 2009 are concerned about the future of the nuclear industry than
               were in 2005)




                                                                                                                  47
                                                        OIG NRC Safety Culture and Climate Survey – Executive Summary


In reviewing the NRC Office and Regions results for 2009, the Headquarters Overall, Office of
Nuclear Security and Incident Response (NSIR), and the Office of Nuclear Regulatory Research
(RES) had the highest amount of categories that were significantly more favorable when
compared to the results from 2005. Close behind them were Office of Nuclear Material Safety
and Safeguards (NMSS) and Region III. Additionally, there were not any offices that showed
multiple categories with significantly lower favorable scores when compared to 2005.

It is apparent that employee engagement at the NRC is highly affected by attitudes toward
Management Leadership, Continuous Improvement Commitment and Training and Development
- all areas the NRC should continue to focus on.

Below are a list of strengths to maintain and a list of opportunities for improvement.

KEY STRENGTHS TO MAINTAIN
   1. Historical Comparisons – all categories are at or significantly above 2005 levels

   2. Normative Comparisons – all categories are at or significantly above norm levels,
      including High Performance Norm

   3. Workload and Support – work schedules, prioritization, and computer systems viewed
      favorably

   4. Quality Focus – excellent quality, and improvement on sacrificing quality for metrics or
      personal/political needs

   5. Training and Development – training opportunities; personal growth & development;
      talent management

   6. Performance Management – performance evaluated fairly; performance reviews are
      helpful

   7. Open, Collaborative Working Environment – much greater awareness and acceptance
      of programs and processes

KEY OPPORTUNITIES FOR IMPROVEMENT
   1. NRC Image – holding all employees to the same ethical standards

   2. Training and Development – availability of classes and personal workload interfering
      with ability to attend training

   3. Communication – NRC public Web site, ADAMS, EDO Updates not viewed as
      favorably as in 2005




                                                                                                                 48
                                                OIG NRC Safety Culture and Climate Survey – Executive Summary


4. Organizational Change – concern about the future of the nuclear industry and frequent
   changes of one’s supervisor

5. Empowerment – management trusting employees’ judgment




                                                                                                         49
